HHS/OIG, Audit - "Review of Inpatient Psychiatric Crossover Claims to Medicaid for Patients Between the Ages of 21 to 64 in New Jersey's Private and County Operated Institutions for Mental Diseases," (A-02-02-01017)
Department
of Health and Human Services
"Review of Inpatient Psychiatric Crossover Claims to Medicaid for Patients
Between the Ages of 21 to 64 in New Jersey's Private and County Operated Institutions
for Mental Diseases," (A-02-02-01017)
March 7, 2003
Complete Text of Report is available in PDF format
(2.21 Mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if controls were in place to effectively
preclude New Jersey from claiming federal financial participation (FFP) under
the Medicaid program for crossover claims (Medicare to Medicaid) for inpatient
psychiatric services provided to 21 to 64 year old residents of private and
county operated psychiatric hospitals that were institutions for mental diseases.
We determined that improvements were needed in controls established by the state
to preclude claiming FFP for such claims.  Although it was state policy
not to claim FFP for these services, we determined that for the period December
1, 1991 through May 20, 2002, the state improperly claimed $896,072 of FFP.
We discussed this issue with state officials who agreed with our findings and
instituted corrective actions.  One of the corrective actions consisted
of amending an edit within their Medicaid Management Information System (MMIS)
to prevent FFP from being claimed.  Our report recommended that New Jersey
refund $896,072 to the Federal Government, identify and return any improper
FFP claimed subsequent to May 20, 2002, and that they periodically review the
edit in their MMIS to ensure that it is functioning as intended.  New Jersey
officials generally concurred with our recommendations.